           U.S. Department of
                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Attestation Engagement –                    Date:    December 18, 2013
           Review of FY 2013 Drug Control Obligation
           Summary and Performance Summary Reports,
           National Highway Traffic Safety Administration
           Project No. 14F3009F000

  From:                                                          Reply to
           Louis C. King                                         Attn. of:   JA-20
           Assistant Inspector General for Financial and
            Information Technology Audits

    To:    National Highway Traffic Safety Administrator

           On January 18, 2013, the Office of National Drug Control Policy (ONDCP) issued its
           Accounting of Drug Control Funding and Performance Summary Circular (the
           Circular). The Circular requires agencies to submit drug control obligations and
           performance reports. It further requires inspectors general to review these reports.

           As required, the Office of Inspector General (OIG) is initiating an attestation
           engagement of the National Highway Traffic Safety Administration’s (NHTSA) fiscal
           year 2013 Drug Control Obligation Summary and Performance Summary Reports.
           Our objective is to provide negative assurance as to whether any information came to
           our attention based on the work performed to indicate that management’s assertions
           are not fairly presented, in all material respects, in conformity with the Circular’s
           requirements. We will not express an opinion on the accuracy of NHTSA’s Drug
           Control Obligation Summary and Performance Summary Reports.

           We will begin our attestation engagement immediately and will contact your audit
           liaison to schedule an entrance conference. The Circular requires that we submit our
           report to ONDCP by February 1, 2014. To meet this timeframe, we will need the
           signed fiscal year 2013 reports by January 2, 2014.
                                                                           2

If you have any questions, please call me at (202) 366-1407, or George Banks,
Program Director, at (410) 962-1729.

                                     #

cc: Thomas Johnson, ONDCP
    Richelle Perazich, ONDCP
    DOT Audit Liaison, M-1
    NHTSA Audit Liaison, NPO-310
